                     Income Contingent Repayment
                Cost Attribution and Borrower Studies
                Could Assist to Meet the Objectives of
        Federal Financial Reporting and Program Management




                                 FINAL AUDIT REPORT




                                 Audit Control Number 07-70002
                                           June 1998




Our mission is to promote the efficient                      U.S. Department of Education
and effective use of taxpayer dollars                        Office of Inspector General
in support of American education                             Kansas City, MO
                             NOTICE

Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
   taken will be made by appropriate Department of Education officials.
  OIG AUDIT TEAM

        Audit Staff:

     Jim Okura, CPA
 Carolyn McShannon, CPA


     William Allen, CPA


Information Technology Staff:

  Jan Keeney, CPA, CISA


 Advice & Assistance Staff:

       Judith Morrill

        Pat Howard
                                                  Table of Contents

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       1

    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3

    Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             3

    Statement on Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    4

AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

    ICR Costs Should Be Attributed To The Original Loan Programs . . . . . . . . . . . . . . . . . . 5

    ICR Borrower Characteristics Should Be Identified . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

    ICR Costs Should Be Determined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  8

    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10

    Department Response and Auditor Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

Appendix A - Repayment Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     11

Appendix B - Chart: ICR Cost Analysis For Borrower and Government . . . . . . . . . . 12

Exhibit - Department of Education Response to the Draft Report . . . . . . . . . . . . . . . . 13
                              EXECUTIVE SUMMARY
This report sets out the results of our analysis and recommendations regarding the Federal Direc    t
Loan Program’s (FDLP), Income Contingent Repayment plan. The Income Contingent Repayment
(ICR) plan allows FDLP borrowers to repay loans as a percentage of income. Policy maker             s
considered many interrelated variables that have an impact on the costs to the Federal Government
when they were designing the ICR plan with terms that would be attractive to borrowers. The ICR
plan has been in effect for only a few years and the cost
                                                       s and benefits associated with the plan are not
fully known. Nevertheless, we decided to provide as much information to program managerss a
possible at this time, along with our recommendations for additional studies of ICR plan costs and
users. In order to better support future policy decisions, the Assistant Secretary for Postsecondary
Education should collect the information and conduct the long-term studies recommended below:

C Expand the accumulation of and report ICR costs separately from other FDLP costs in order
to be able to attribute the costs to the original loan program.

          In our opinion, the true cost of the various programs will not be reflected accurately
          unless the costs of the ICR plan are matched against benefitting programs. Although
          ICR is available only in the FDLP, many borrowers with education loans may
          consolidate their loans into the FDLP and elect torepay their new loan under the ICR
          plan.1 In addition to loans made under the Department’s major loan program, th       e
          Federal Family Education Loan Program (FFELP),education loans made under other
          Department of Education and Department of Health and Human Services programs
          are eligible for consolidation into the FDLP. Creating a separate cost center tha    t
          identifies borrowers with their original loan program will provi
                                                                        de data to help evaluate
          the FDLP, as well as the other loan programs.2

C Expand the data collected to include a long-term study to determine the characteristics of
ICR borrowers in order to better understand and a ddress the needs of the population that the
ICR plan serves.

          Using March 31, 1997, Department of Education data, the General Accounting Office
          (GAO) reported that the ICR plan had higher delinquency and default rates tha  n




          1
              Once consolidated, the consolidated loan is a new loan under the FDLP.

          2
             Other loan programs include, Federal Family Education Loan Program (FFELP); Federal Insured Student Loans (FISL); Federal
Perkins Loans; National Direct Student Loans (NDSL); National Defense Student Loans (NDSL); Health Professions Student Loans (HPSL);
Auxiliary Loans to Assist Students (ALAS); Loans for Disadvantaged Students (LDS); Health Education Assistance Loans (HEAL); Nursing Loans
made under the Public Health Service Act


ED - OIG                                                      ACN: 07-70002                                                     Page 1
           borrowers using other repayment plans.3 However, the GAO report noted that,a
           comparison of individual types of loans shows that ICR users do not have highe     r
                                                                               4
           delinquency and default ratesthan users of all other repayment plans. Similarly, our
           analysis of loan payment collections from July 1, 1994, to December 31, 1996,
           disclosed that borrowers using the ICR plan have higher overall delinquency an    d
           default rates than borrowers using the other FDLP repaymentplans. Since these early
           statistics reflect the inclusion of defaulted Federal FamilyEducation Loan Program
           (FFELP) loans that were consolidated into the FDLP from the Department’s Deb       t
           Collection Service (DCS), they distort the results and may not reflect the repayment
           habits of the remainder of the ICR plan population. In our opinion, the Department
           should conduct a long-term study to gather information in order to develop a model
           to better understand the population that the ICR plan serves. This model woul     d
           enable the Department to modify the ICR plan to better serve borrower needs.

C Continue to accumulate the cost of the ICR plan in or der to better support important policy
decisions.

           The ICR plan has been in effect for only a few years and the costs associated with the
           plan are not fully known. There are variables, such as interest rates paid and charged,
           loan repayment periods, and debt written off, in the ICRplan that will affect total cost
           of the ICR plan. The Department should accumulateand monitor the cost of the ICR
           plan to both the government and ht e borrower so that it can determine if policies and
           regulations require modification to achieve the intended goals of the ICR plan.

The Department agreed with the report’s focus on the importance of gatheringand analyzing cost
and borrower data related to the Direct Loan’sICR plan. The Department noted that it accumulates
data on the FDLP income-contingent repayment plan through a number of Department systems. The
Department’s response is included as an Exhibit to this report.




           3
               The GAO calculations based on Department of Education data as of March 31, 1997, identified the ICR plan’s delinquency and default
rates as 16 percent and 5 percent respectively, based on borrower counts.

           4
            GAO separated the FDLP loans into three Separate loan types: (1) consolidated loans, (2) non-consolidated loans, and (3) former DCS
loans. GAO then analyzed the delinquency and default rates by repayment plans by type of FDLP loan.


ED - OIG                                                     ACN: 07-70002                                                           Page 2
                                       Introduction

The Student Loan Reform Act of 1993, enacted on August 10, 1993, established the FDLP under the
Higher Education Act of 1965, as amended. Under the FDLP, loan capital is provided directlyot
student and parent borrowers by the Federal Government rather than through private lenders    .
Borrowers under the FDLP are provided a range of repayment options, including the ICR plan.

Under the ICR plan, the borrower’s monthly repayment amount is generally based on total Direc    t
Loan amounts, family size, and adjusted gross income(AGI), reported for the most recent year. The
Secretary recalculates the borrower’s repayment amount each year. The maximum repayment period
is 25 years, after which the Secretary cancels the unpaid loan portion. Under certain conditions ,
borrowers may qualify for a repayment amount of zero under the ICR plan. Otherwise, the Secretary
requires a minimum monthly payment of five dollars (effective July 1, 199
                                                                        6). Previously the minimum
required payment was fifteen dollars. Because payment amounts can expand or contract with th     e
borrower’s ability to pay, ICR allows borrowers with lowincomes or high debt to fit their student
loan payments into their budget.



                             Scope and Methodology

The objectives of our audit were to:

       Identify areas for improvement in the FDLP with an emphasis on the ICR plan, and
       consolidations. To accomplish these objectives we reviewed the loan consolidation
       process and analyzed FDLP collection information. This report sets out our findings
       and recommendations related to the ICR plan. With regard to our objective related
       to consolidation loans, we issued SFA Action Memorand
                                                           um 97-09 to the Department
       on September 18, 1997.

       Identify the FDLP collection process in order to providehe
                                                                t information to other OIG
       staff for the Department-wide financial statement audit and another OIG review. To
       accomplish this objective we made a site visit to the Direct Loan Service Centerni
       Utica, New York.

To achieve our audit objectives,we relied on computer-processed data contained in the Department
contractor’s database. We performed testing for completeness and reasonableness of the computer
processed data. Although we discovered some weaknesses in the data, we concluded that the data
utilized in our analyses was sufficiently reliable to meet our audit objectives. However, ew
determined that the ICR plan, a new repayment option, and the data reviewed were too new to allow

ED - OIG                                 ACN: 07-70002                                   Page 3
long-term projection. Nevertheless, we decided to provide as much information to program managers
as possible at this time, along with our recomme
                                               ndations for additional studies of ICR plan costs and
users.

Our audit covered the period July 1, 1994 through December 31, 1996. Our review was conducted
from January 1997 through October 1997. We visited the Direct Loan Service Center (DLSC) ni
Utica, New York where we obtained an overview of collection procedures. We requested loan and
collection data from the Department’sDirect Loan contractor Computer Data Systems, Inc. (CDSI)
located in Rockville, Maryland. We conducted a material portion of our fieldwork and our analysis
of the data at our Seattle and Kansas City offices. In addition, we relied on information in a GAO
report entitled, DIRECT STUDENT LOANS, Analyses of Borrowers’Use of the Income Contingent
Repayment Option, dated August 21,1997, which was an analysis of Department of Education
records as of March 31, 1997. Our audit was conducted in accordance with generally accepted
government auditing standards applicable to the limited scope of review described above.



                    Statement on Management Controls

We performed limited procedures regarding management controls at the Direct Loan Service Center
in Utica, New York. We obtained a generalunderstanding of the loan collection process but did not
perform any substantive testing of procedures or operations. Our limited review did not identify any
significant weaknesses. We performed a reliability assessment for the data used in our report an  d
determined that it was sufficiently reliable to support the audit results and findings.

Because of inherent limitations, a study and evaluation made forhe
                                                                 t limited purposes described above
would not necessarily disclose all material weaknesses in the control structure.




ED - OIG                                  ACN: 07-70002                                    Page 4
                             AUDIT RESULTS
As a result of our analysis of the FDLP’s, ICRplan, we recommend that the Department: (1) expand
the accumulation of and report ICR costs separately from other FDLP costs in order tobe able to
attribute the costs to the original loan program, (2) expand the data collected to include a long-term
study to determine the characteristics of ICR borrowers inorder to better understand and address the
needs of the population that the ICR plan esrves, and (3) continue to accumulate the cost of the ICR
plan to both the government and the borrower, in order to better support important policy decisions.




    ICR Costs Should Be Attributed To The Original Loan Programs

In our opinion, the costs of the ICR plan should be identified with the original loan programs  .
Section 68 of the Managerial Cost Accounting Concepts and tSandards for the Federal Government,
Statement of Federal Financial Accounting Standards (SFFAS) No 4, promulgated by the Federal
Accounting Standards Advisory Board on July 31, 1995, provides the rationale for accumulating and
reporting program and activity costs. It states:

       “To perform managerial cost accounting on a ‘regular basis’ means that entities
       should establish procedures to accumulate and report costs continuously, routinely,
       and consistently for management information purposes. Consistent and regular cost
       accounting is needed to meet the second objective offederal financial reporting which
       states information should be provided to help the user determine the costs fo
       providing specific programs and activities and the composition of, and changesni
       those costs.”

Section 69 goes on to link the need for accumulating and reporting progr
                                                                      am and activity costs to both
the Chief Financial Officers (CFO) Act of 1990 and Government Performance and Results Ac          t
(GPRA) of 1993:

       “The CFO Act of 1990 states that agency CFOs shall provide for the development and
       reporting of cost information and the periodic measurement of performance. nI
       addition, the GPRA of 1993 requires each agency, for each program, to establis      h
       performance indicators and measure or assess relevant outputs, service levels, an   d
       outcomes of each program as a basis for comparing actual results with establishe    d
       goals. The nature of these legislative mandates requires reporting entities to develop
       and report cost information on a consistent and regular basis.”

ED - OIG                                   ACN: 07-70002                                     Page 5
Consistently accumulating and reporting on program activity costs would allow the Department to
report FDLP performance and results to Congress as required under the GPRA. Furthermore             ,
mandated by the Student Loan Reform Act of 1993, the ICR plan may be used by borrowers from
a variety of Department of Education and Department of Health and Human Service loan programs.
Creating a separate cost center that identifies borrow
                                                     ers with their original loan program will provide
                                                                       5
data to help evaluate the FDLP, as well as the other loan programs.


                    ICR Borrower Characteristics Should Be Identified

In our opinion, it is important for the Department to determine the population of borrowers actually
using the ICR repayment plan.6 A recent General Accounting Office (GAO) report based on March
31, 1997, data reported the ICR plan as having higher delinquency and default rates than borrowers
using other repayment plans.7 However, the GAO report notes that, “A comparison of individua      l
types of loans shows that ICR users do not have higher delinquency rates than users of all othe  r
repayment plans.” GAO goes on to state that “As with delinquencies, a comparison of individua     l
types of loans shows that ICR users did not have higher percentages of loans in default across the
board than users of other repayment plans.” A long-term study to gather information to develop a
model to better understand the population that the ICR plan serves may enable the Departmentot
modify the ICR plan to better respond to borrower needs.

FDLP borrowers can select from several repayment options (see Ap   pendix A). As stated in the GAO
report cited above, “The ICR option is the most flexible. It allows borrowers to pay relatively small
or no monthly payments when their incomes are low and to pay more w    hen their incomes rise.” Even
though ICR is more flexible, our analysis of loan payment collections from July 1, 1994 to December
31, 1996, disclosed that borrowers using the ICR plan have higher delinquency and default rates than
borrowers using the other FDLP repayment plans. Since these early statistics include defaulte     d
Federal Family Education Loan Program (FFELP) loans that were consolidated into the FDLP from
the Department’s Debt Collection Service (DCS), they distort the results and may not reflect eth
                                                                8
repayment habits of the remainder of the ICR plan population.



           5
             Other loan programs include, Federal Family Education Loan Program (FFELP); Federal Insured Student Loans (FISL); Federal
Perkins Loans; National Direct Student Loans (NDSL); National Defense Student Loans (NDSL); Health Professions Student Loans (HPSL);
Auxiliary Loans to Assist Students (ALAS); Loans for Disadvantaged Students (LDS); Health Education Assistance Loans (HEAL); Nursing Loans
made under the Public Health Service Act
           6
               The Income Contingent Repayment (ICR) plan allows FDLP borrowers to repay loans as a percentage of income, so they can choose
their career of preference. Policy makers considered many interrelated variables that have an impact on the costs to the Federal Government when they
were designing the ICR plan with terms that would be attractive to borrowers.

           7
               The GAO calculations based on Department of Education data as of March 31, 1997, identified the ICR plan’s delinquency and default
rates as 16 percent and 5 percent respectively, based on borrower counts.
           8
              In a 1996 audit, we recommended that the Department discontinue active pursuit of consolidating Debt Collection Service (DCS) loans
into the Direct Consolidation Loan Program.


ED - OIG                                                      ACN: 07-70002                                                            Page 6
We believe long-term tracking would assist the De
                                                partment in managing the ICR plan. For example,
the correlation between low monthly payment amounts and higher delinquency rates could be useful
information for ICR managers. One of the ICR plan’s advantages is to allow borrowers with lower
incomes to make smaller monthly payments. However, over 34 percent of the borrowers wit       h
calculated monthly payments of 5 dollars or less (excluding zero-payment borrowers) were 31ro
more days delinquent.9 The delinquency rates continued to increase as the payment amount      s
increased and peaked at over 43 percent for borrowers in the $30.01-50.00 payment range.
Thereafter, the delinquency percentage decreasedas the monthly payment amounts increased. In the
$500.01 and up range the delinquency rate was 16.25 percent.




I n
add i
tion,
while not typical, the Department should consider tracking costs that appear unusual and warran   t
additional investigation. For example,our analysis identified 660 borrowers with a Principal Balance
Outstanding (PBO) over $100,000 of which 102 had a calculated monthly payment amount of zero.
In addition, there were many borrowers with very low scheduled payments. For example, on          e
borrower with a loan of over $315,000, which includes $230,000 of Health Education Assistance
Loans, was only required to pay $126 a month. This borrower’s debt currently increases almos      t
$2,000 every month. If this situation were to continue, at the end of the 25 year repayment period
the total loan amount and accrued interest would be almost $1 million. The taxpayer subsidy in this
instance could be $600,000.




       9
           For borrowers whose calculated monthly payment is $0.01-5.00, the minimum required payment is $5.00.


ED - OIG                                                 ACN: 07-70002                                            Page 7
                                       ICR Costs Should Be Determined

As discussed in the GAO report cited above, there is no single answer to whether a borrower will pay
more or less under the ICR plan compared with other repayment plans. Borrowers with a limite          d
ability to pay could pay more as a result of larger total interest cost over the full term of their loans
and tax liability on the amount they wereunable to repay within the 25 year repayment period. ICR
may be less costly for borrowers who have the ability to repay their loans over ashorter period of
time than the extended or graduated repayment plans. The additional cost to borrowers is primarily
the result of the increased amount of interest paid on the debt over time.

As illustrated in the chart below, the ICR plan could be more costly to borrowers compared to the
other repayment plans when borrowers use the full period available to repay their debt. Borrowers
on the standard repayment plan would pay the least amount of interest on their $15,000 loan
compared to the other repayment plans. For the ICR plan, of the $39,188 total amount paid, the
borrower’s payments would total $36,048. Under existing rules, the unpaid balance of $3,140 si
forgiven by the Departmentbut considered as income to the borrower for tax purposes. Using a 15
percent marginal tax rate, the borrower would have a tax liability of $471 on the $3,140, while the
taxpayer would pay the remaining amount of $2,669.




                                                                                                                                    Comparison
                                                                                                                                     of Student
                                                                                                                                        Loan
                                                        Repayment Plans - Assumptions

All calculations are for a single borrower. Interest rate remains constant at 8.25 %. Maximum allowable payback period for the Graduated and Extended
repayment plan examples. Borrower’s income starts at $15,   000 and grows 5 % annually for the ICR plan example. The Initial Monthly Payment for each
repayment plan example is: Standard - $184, Extended - $146, Graduated - $105, and ICR - $106. (Source: Analysis by National Council of Higher
Education Loan Programs, Education Finance Council, and the Coalition for Student Loan Reform entitled “An Examination of the Long-Term Costs to
Student Borrowers of Income Contingent Repayment under the Federal Direct Loan Program”, dated, November 1996.)

The ICR plan has been in effect for only a few eyars and the costs to the government associated with

ED - OIG                                                       ACN: 07-70002                                                           Page 8
the plan are not fully known. There are variables, such as interest rates paid and charged, loa   n
repayment periods, debt written off, in the ICR plan that will affect total cost of the ICR plan. The
Department should accumulate and monitor the cost of the ICR plan to both the government and to
the borrower so that it can determine if policies and regulations require modification to achieve the
intended goals of the ICR plan.

The Compounding Effects of Interest Increase Borrowers’ Debt. As of December 31,1996, 30
percent of ICR borrowers (representing over $193 million of PBO) had zero monthly payments       .
These borrowers may be eligible to go 25 years without making any payments while interestsi
capitalized and accrued. At the current interest rate, borrowers reach the 10 percent limit in about
14 months and the loan amount doubles in slightly more than 12 years.

Capitalized and accrued interest increase borrowers’debt. Our analysis shows that nearly 44 percent
of all ICR borrowers’ monthly scheduled payment amounts do not cover the interest on thei           r
outstanding principal amounts. As designed, unpaid interest is capitalized until it reaches 10 percent
of the original loan amount and is accrued thereafter.10 Over the 25 year repayment period,
borrowers can end up accruing more in interest costs than the original principal amount borrowed.

After 25 years the borrower’s unpaid ICR loan amount is forgiven. In this situation, the borrower
is liable for the income tax on the forgiven amount and the government will be covering eth
remainder. Appendix B illustrates the costs forthe borrower and government on the selected unpaid
loan balances.

ICR is unique in that it is the only student loan repayment plan that does not require the borrower to
at least cover interest costs e( xcluding deferment and forbearance periods).11 Thus, the government
is responsible for the interest on the money that the Department borrows from the Treasury for the
ICR loans when the borrower’s payment does not cover thenterest
                                                              i      accruing on the outstanding loan
balance. For example, in 1996 the Treasury charged the Department 6.64 percent interest while the
Department charged borrowers 8.25 percent. However, as previously stated, almost 44 percent of
ICR borrower payments do not cover the interest on their loans. As a result, the government must
cover the additional expense of borrowing funds from the Treasury.




         10
             During deferment periods borrowers with Unsubsidized Direct Loans can choose to pay the interest or have it
capitalized. Also, borrowers who request that interest payments be forborne will have their interest payments capitalized.
         11
              The alternative plan allows borrower payments to be less than the accrued interest amount. However, for our
audit period, we did not identify any borrowers on the alternative repayment plan.

ED - OIG                                             ACN: 07-70002                                                 Page 9
                                    Recommendations

We recommend that the Assistant Secretary for Postsecondary Education:

       1.     Expand the accumulation of and report ICR costs separately from other FDLP costs
              in order to be able to attribute the costs to the original loan program.

       2.     Expand the data collected to include a long-term study to determine th            e
              characteristics of ICR borrowers in order to better understand and address the needs
              of the population that the ICR plan serves.

       3.     Continue to accumulate the costs of the ICR plan to both the government and th
                                                                                          e
              borrower in order to better support important policy decisions.




        Department of Education Response and Auditor Comments

The Department strongly agreed with the report’s focus on the import
                                                                   ance of gathering and analyzing
cost and borrower data related to the Direct Loan’s income contingent repayment plan. Th         e
Department noted that they accumulate data on the FDLP income-conting  ent repayment plan through
a number of Department systems. This issue was discussed at the exit conference. However, eth
Department was unable to provide the data requested. While the Department accumulates the data
in various data systems, we emphasize the need to accumulate the information in the manner ew
recommend to ensure that the data collectedis complete and reliable so that the Department can: (1)
accumulate the ICR cost separately from other FDLP costs in order to attribute the costs to th   e
original loan program; (2) prepare a long-term study to determine borrower characteristics in order
to better understand and address the needs of the population that the ICR plan serves, and (3    )
continue to accumulate the costs of the ICR plan to both the government and the borrower in order
to better support important policy decisions.




ED - OIG                                 ACN: 07-70002                                  Page 10
                                                                                   Appendix A
                                       Repayment Plans
                                         Standard
‚     Up to 10 years to repay; Fixed, monthly payments; $50 minimum monthly payment

                                          Extended
‚     Between 12 and 30 years to repay (excluding deferment and forbearance periods) depending
      on loan amount; Fixed, monthly payments;$50 minimum monthly payment [See table below
      for repayment periods]

                                          Graduated
‚     Between 12 and 30 years to repay (excluding deferment and forbearance periods) depending
      on loan amount; Monthly payment = the monthly interest accrual or 50% of the amoun     t
      required under standard repayment, whichever is greater; Monthly payments may range from
      50-150% of payments under standard plan; payments increase every two years. [See tabl  e
      below for repayment periods]

                                     Income Contingent
‚     25 years to repay; After 25 years, unpaid loan portion is forgiven; Monthly payments based
      on adjusted gross income (AGI) and recalculated annually

                                            Alternative
‚     Special approval by the Secretary; 30 years to repay; if monthly amount does not cove
                                                                                          r
      interest, it is capitalized (to 10%) and accrued thereafter (like ICR)



                 Loan Amount and Repayment Period (Maximum Number of Payments)

                                                   The Repayment Period/Maximum Number of
           If the Direct Loan Amount is:                    Monthly Payments Is:

                 less than $10,000                         12 Years / 144 Monthly Payments

                $10,000 - 19,999.99                        15 Years / 180 Monthly Payments

                $20,000 - 39,999.99                        20 Years / 240 Monthly Payments

                $40,000 - 59,999.99                        25 Years / 300 Monthly Payments

                 $60,000 or more                           30 Years / 360 Monthly Payments




ED - OIG                                   ACN: 07-70002                                     Page 11
                                                                                                           Appendix B


                                   ICR Cost Analysis For Borrower and Government
                                        Unpaid            Borrower’s                                        Portion of Total
                                        Balance          Estimated Tax        Total Cost     Repayment        Repayment
                 Amount Paid          Forgiven by         Liability on       of Repaying     Costs to be      Costs to be
   Amount         by Borrower         ED at End of       Forgiven Loan       Loan Under        Paid by        Covered by
  Borrowed       Over 25 Years         25 Years12           Balance              ICR          Borrower        Taxpayers

      $2,500              $6,009                $520                 $78           $6,529          $6,087              $442
                                                                                   100%             93%                 7%

     $10,000             $24,032              $2,094                $314          $26,126         $24,346            $1,780
                                                                                   100%             93%                 7%

     $15,000             $36,048              $3,140                $471          $39,188         $36,519            $2,669
                                                                                   100%             93%                 7%

     $20,000             $47,596              $7,431              $1,115          $55,027         $48,710            $6,316
                                                                                   100%             89%               11%

     $25,000             $57,373            $21,631               $3,245          $79,004         $60,618           $18,386
                                                                                   100%             77%               23%

     $30,000             $65,526            $31,977               $4,797          $97,503         $70,322           $27,180
                                                                                   100%             72%               28%

     $40,000             $77,469            $52,752              $14,771        $130,221          $92,240           $37,981
                                                                                  100%              71%               29%

     $50,000             $84,261            $78,573              $22,000        $162,834        $106,262            $56,573
                                                                                  100%             65%                35%

     $75,000             $86,751           $157,559              $44,117        $244,310        $130,868           $113,442
                                                                                  100%             54%                46%

    $100,000             $86,751           $239,035              $66,930        $325,786        $153,681           $172,105
                                                                                  100%             47%                53%




[Assumptions: Single borrower; initial income = $15,000 (rising 5% annually); Interest rate = 8.25%; inflation = 3 %
annually]

Source: Analysis by National Council of Higher Education Loan Programs, Education Finance Council, and th    e
Coalition for Student Loan Reform entitled “An Examin
                                                    ation of the Long-Term Costs to Student Borrowers of Income
Contingent Repayment under the Federal Direct Loan Program”, dated November 1996.



        12
             NOTE: The 25 years refers to the maximum loan repayment period for ICR loans.


ED - OIG                                               ACN: 07-70002                                             Page 12
                      EXHIBIT

   Department of Education Response to the Draft Report




ED - OIG                 ACN: 07-70002               Page 13
                       REPORT DISTRIBUTION LIST
                       Audit Control Number A07-70002



Action Official

Dr. David Longanecker, Assistant Secretary
Office of Postsecondary Education (OPE)
ROB-3. Room 4082
7th and D Streets, S. W.
Washington, D.C. 20202

Other ED Offices

Deputy Secretary, Office of the Deputy Secretary
Deputy General Counsel, Office of General Counsel
Undersecretary for Education, Office of the Undersecretary for Education
Deputy Assistant Secretary for Student Financial Assistance Programs
Supervisor, Post Audit Group, Office of the Chief Financial Officer
Director, Budget Service
Service Director, Accounting and Financial Management Services
Office of Public Affairs

Office of Inspector General

Inspector General (Acting)                                                 1
Deputy Inspector General (Acting)                                          1
Assistant Inspector General for Audit                                      1
Assistant Inspector General for Investigation                              1
Assistant Inspector General for Operations, Western Area                   1
Assistant Inspector General for Operations, Eastern Area                   1
Director, Postsecondary Advice and Assistance                              1
Area Managers                                                              1 each
